CERTIFICATE OF SERVICE
NO. TBD
O’Reilly Auto Enterprises, LLC, d/b/a O’Reilly Auto Parts
Petitioner,
v.
Brian Bell
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
O’REILLY AUTO ENTERPRISES, LLC, D/B/A O’REILLY AUTO PARTS PETITION FOR WRIT OF
CERTIORARI, by mailing three (3) true and correct copies of the same by Fedex 2-Day, prepaid for
delivery to the following address.
Allan K. Townsend
Maine Employee Rights Group
92 Exchange St.
Portland, ME 04101
(207) 874-0905
Counsel for Brian Bell

Lucas DeDeus

March 1, 2021
SCP Tracking: Morris-401 West A Street, Suite 2600-Cover White

